FDIC Office of Inspector General Press Release: Jury Finds Former Bank Director Guilty of Embezzling Funds
United States Department of Justice
United States Attorney's Office
Western District of Pennsylvania
FOR IMMEDIATE RELEASE
September 26, 2014
Jury Finds Former Bank Director Guilty of Embezzling Funds
PITTSBURGH - After deliberating eight hours, over two days, a federal jury of five men and seven women found Michael P. Bernick guilty of nine counts of misapplication of funds by a bank director, United States Attorney David J. Hickton announced today.
Michael P. Bernick, 51, of Pittsburgh, PA, was tried before United States District Judge Arthur J. Schwab in Pittsburgh, Pennsylvania.
According to Assistant United States Attorney Carolyn J. Bloch, who prosecuted the case with the assistance of Special Assistant United States Attorney Regina Sandler of the Federal Deposit Insurance Corporation, the evidence presented at trial established that Bernick, a Director of the Metropolitan Savings Bank, formerly located in the Lawrenceville section of Pittsburgh, embezzled and misapplied in excess of $350,000 from the bank between January 2005 and March 2006.  Donna Shebetich, Bernickâs girlfriend and the former Director and Vice President of Metropolitan, provided him with nine monetary disbursements from the bankâs checking account in the form of seven cashierâs checks and two wire transfers  payable to Bernick, himself, or to financial institutions used to pay off his loans.
Bernick did not complete any loan applications, sign notes, or provide security for the monetary advances.  Metropolitanâs procedures required that all advances be approved by the Board of Directors. Neither Bernick nor Shebetich sought the authorization from the Board of Directors, either before or after the advances were extended.  Shebetich is currently serving a six-year term of imprisonment for filing false quarterly reports with the FDIC, which further secreted Bernickâs conduct.
Judge Schwab scheduled sentencing for Feb. 19, 2015, at 9:30 a.m.  The law provides for a total sentence at each count of 30 years in prison, a fine of $250,000, or both.  Under the Federal Sentencing Guidelines, the actual sentence imposed is based on the seriousness of the offenses and the prior criminal history, if any, of the defendant.
Pending sentencing, the court continued defendant on bond.
The Federal Deposit Insurance Corporation and the Federal Bureau of Investigation conducted the investigation that led to the prosecution of Bernick.
####